Peace Corps
Office of Inspector General




Semiannual Report to Congress
April 1 - September 30, 2007
                                     PEACE CORPS
                              OFFICE OF INSPECTOR GENERAL
                                 ORGANIZATIONAL CHART




                                        INSPECTOR GENERAL



                                                                        LEGAL COUNSEL
    EXECUTIVE MANAGER


                                     DEPUTY INSPECTOR GENERAL        OFFICE ADMINISTRATOR
    EXECUTIVE ASSISTANT




ASSISTANT INSPECTOR GENERAL         ASSISTANT INSPECTOR GENERAL   ASSISTANT INSPECTOR GENERAL
       EVALUATIONS                         INVESTIGATIONS                   AUDITS


     SENIOR EVALUATOR                  SENIOR SPECIAL AGENT        TECHNICAL AUDIT MANAGER



     SENIOR EVALUATOR                  SENIOR SPECIAL AGENT             SENIOR AUDITOR



     SENIOR EVALUATOR                     SPECIAL AGENT                 SENIOR AUDITOR



     SENIOR EVALUATOR                     SPECIAL AGENT                    AUDITOR
                 PEACE CORPS

       Office of Inspector General

                                Vision

To conduct audits, evaluations, and investigations that uphold the
effectiveness, efficiency, and integrity of the agency in achieving the
goals set forth in the Peace Corps Act that Peace Corps Volunteers
help the people of the countries in which they serve in meeting
their needs for trained manpower, and in helping promote a better
understanding of the American people on the part of the people
served, and a better understanding of other people on the part of the
American people.




        Semiannual Report to Congress
              April 1 – September 30, 2007
                              TABLE OF CONTENTS


t	Highlights from this Report	                                               1
    	Message from the Inspector General	                                     1

	 Management and Administration	                                            4
	 Agency Context	                                                            4
	 OIG Staffing                                                               4

	 Advice and Assistance Provided to the Agency and Others                    6
	   Investigation of Fraud at Peace Corps/Niger                              6
	   Online Collaboration Tools                                               6
	   Advice on Establishing Internal Controls                                 7
	   Clarifications to Recruitment Catalog                                    7
    Revision of Manual Section Regarding Internal Controls                   8

    Management and Performance Challenges	                                  9

	 Audits and Program Evaluations 	                                          13
	 Overview	                                                                 13
  Summary of Audits and Evaluations 	                                       14
  Peace Corps Fiscal Year 2007 Financial Statement Audit                    14
	 Review of the Agency’s Federal Information Security Program	              14
	 Peace Corps/Cameroon	                                                     14
	 Peace Corps/Jordan: Audit	                                                15
	 Peace Corps/Niger: Audit	                                                 16
	 Peace Corps/Senegal: Audit	                                               17
	 Peace Corps/Thailand: Audit	                                              18
	 Peace Corps/Zambia: Audit	                                                18
	 Peace Corps/Honduras: Follow-up Audit 	                                   19
	 Peace Corps/Panama: Follow-up Audit	                                      19
	 Safeguarding of Social Security Numbers: Follow-up Audit 	                20
	 Peace Corps/Azerbaijan: Program Evaluation                                20
  Peace Corps/Eastern Caribbean: Program Evaluation                         21
  Peace Corps/Guinea: Program Evaluation                                    22

    Investigations                    	                                     23
	 Overview	                                                                 23
   Missing Peace Corps Volunteer Investigation                              24
   Investigation of a Murder of a Volunteer 	                               25
	 Investigation into Abuse of Computer Usage	                               26
   OIG Investigations of Federal Employees’ Compensation Act Recipients 	   27

ctor General Act 	           45
Violent Crimes Against Volunteers                                             29
Closed Cases of Violent Crime Against Volunteers                  	           30
Active Investigations of Violent Crime Cases 	                                31
Title 18 Criminal and Other Investigations Conducted	                         34
Investigations Leading to Disposition	                                        34
Active Investigations	                                                        35

TABLE 1: List of Reports : Audits, Evaluations, and Inspections	              37
TABLE 2: Reports Issued with Questioned Costs or Funds Put to Better Use 	    38
TABLE 3: Status of Reports Issued by OIG with Costs Questioned 	              39
TABLE 4: Status of Reports Issued by OIG with Funds Put to Better Use 	       40
TABLE 5: Reports with Recommendations on which Corrective 	
         Action has not been completed 	                                      41
TABLE 6: Summary of Investigative Activity 	                                  42
TABLE 7: Summary of Hotline and Other Complaints	                             43
TABLE 8: References to Reporting Requirements of the Inspector General Act	   44
the Inspector   General Act 	                                                 36
Highlights from this Report

                      Message from the Inspector General

                                  I am proud to present this Semiannual Report on the
                                  activities and accomplishments of the Peace Corps
                                  Office of Inspector General (OIG) for the period of
                                  April 1, 2007 through September 30, 2007. The audits,
                                  evaluations, and investigations described in this report
                                  demonstrate the continued commitment of the Peace
                                  Corps OIG to promote and increase efficiencies in the
                                  Peace Corps.

                              During this reporting period, on July 25, 2007, I
 had occasion to testify before the U.S. Senate Committee on Foreign Relations
 (Subcommittee on Western Hemisphere, Peace Corps and Narcotics Affairs)
 regarding S. 732, the Peace Corps Volunteer Empowerment Act. The Peace
 Corps Volunteer Empowerment Act, inter alia, suggests a variety of changes and
 improvements to the Peace Corps Medical Clearance System in an attempt to create
 more transparency in the medical screening and appeals process that the Peace Corps
 utilizes to medically clear prospective Volunteers for service.

 In my testimony, I noted that the OIG was undertaking a comprehensive eight-
 month study of the Peace Corps Medical Clearance System and shared several of
 the preliminary findings. This study is the first of its kind, and also marks the first
 time that the Peace Corps has received Office of Management and Budget (OMB)
 approval to reach out to a subsection of the general public, former applicants who
 entered the Medical Screening Process but did not become Peace Corps Volunteers,
 to survey them about their experiences.

 One of the goals of our study is to determine whether frustrations with the Medical
 Clearance System have become a barrier to service in the Peace Corps or have
 otherwise contributed to applicants’ decision to discontinue their Peace Corps
 applications. As I stated in testimony before the Committee, our preliminary
 findings indicate that there are several aspects of the Peace Corps Medical Clearance
 System that can be enhanced, such as in the areas of quality improvement, the
 instructions and guidance given to prospective applicants, customer service, levels of
 reimbursement to applicants for medical costs as well as technological resources that
 may be implemented to streamline the Medical Clearance System. These findings
 are even more critical in light of Peace Corps Director Ronald Tschetter’s “50 plus”
 initiative that encourages individuals over the age of 50 years to apply for Peace


   Peace Corps Office of Inspector General                                         
Corps service. We have preliminarily found that applicants 50 years of age and older
take longer and cost significantly more to screen than applicants under 50 years of
age.

We applaud the Committee’s interest in the Peace Corps and believe there are several
provisions in the proposed Volunteer Empowerment Act (S. 732) which will enhance
the operations of the Peace Corps and the medical clearance process. We plan to
finalize our Medical Clearance System study early in the next reporting period and
continue to provide feedback to the Committee with respect to our findings and
suggestions.

A second comprehensive study that our office is working on involves an evaluation
of the overall safety and security procedures that are in place in the Agency. After
trips to 17 overseas posts and hundreds of interviews, our evaluators are finalizing an
analysis of whether: (a) adequate safety and security information is being provided to
Peace Corps Volunteers; (b) the Peace Corps has provided Volunteers with adequate
and relevant training on safety and security; (c) Volunteers have been placed in
sites that are inspected and monitored appropriately; (d) there have been accurate
reporting of violent and other crimes; and (e) the Agency has adequately planned
for emergencies at overseas posts. This study is in the final stages and should be
presented to the Agency and Congressional officials during the beginning of the next
reporting period.

In addition to considerable work on these two overarching and comprehensive
studies, during this reporting period, OIG evaluators completed program evaluations
at Peace Corps posts in Azerbaijan, Eastern Caribbean, and Guinea.

There have also been significant developments and initiatives on the investigative side
during this reporting period. We continued to achieve tangible gains in our Federal
Employees’ Compensation Act (FECA) investigative work, uncovering further
examples of abuse in the system. During the reporting period, our investigators
found evidence of overpayments, unauthorized family members illegally receiving
death benefits, and unreported income.

In the area of the violent crime coordination, during the reporting period, the OIG’s
investigative unit achieved numerous successes in obtaining convictions in rape and
sexual assault cases such as a 10-year conviction for a rapist in Bolivia and a four-year
conviction for an attempted rape in Paraguay. In addition, in September 2007, I led
a 28-person team consisting of eight specially trained National Park Service Search
and Rescue personnel, four dog handlers and four cadaver dogs, a veterinarian,
four OIG agents, a Bolivian search and rescue team, personnel from the the United
States Embassy Regional Security Office, Bolivian National Police, Federal Bureau of
Investigation officials, and other personnel on a search mission to locate a Volunteer
that has been missing for several years.


                 Semiannual Report to Congress   April 1 - September 30, 2007
This extraordinary effort amid very difficult weather conditions and treacherous
terrain involved the meticulous search of a targeted five-mile square area in the
Zongo Valley of Bolivia. This targeted area was designated as the area with the
highest probability of a successful search effort after a several month re-investigation
of the Volunteer’s disappearance, which included the analyzing of hundreds of pages
of newly located documents and the re-interviewing of local citizens in Bolivia by
OIG investigators with the assistance of expert search managers from the National
Park Service.

This was also a very busy and successful reporting period for our audit unit. OIG
auditors completed audits of Peace Corps posts in Cameroon, Jordan, Niger, Senegal,
Thailand, and Zambia and follow-up audits in Honduras, Panama, and at Peace
Corps headquarters on the Safeguarding of Social Security Numbers. Our auditors
continued their critical work in connection with the financial audit by assisting the
Agency in improving the overall financial health of the Peace Corps in accordance
with the requirements of the Federal Managers Financial Integrity Act and Federal
Financial Management Improvement Act. 

During the next reporting period, we will continue our commitment to work
with the Peace Corps to address its management challenges and to ensure the
efficiency, effectiveness and integrity of agency operations. We take pride in our past
accomplishments and anticipate future achievements of even greater significance.




                                              H. David Kotz
                                              Inspector General




    Peace Corps Office of Inspector General                                        
Management and Administration

                                      Agency Context

  At the end of FY 2007, 8,079 Peace Corps Volunteers and Trainees were serving in
  74 countries at 68 posts. This total includes: 184 Volunteers and Trainees funded
  by the President’s Emergency Plan for AIDS Relief (PEPFAR) working on HIV/
  AIDS projects in nine countries and 33 Crisis Corps Volunteers serving in short-
  term assignments in 10 countries. Eleven Crisis Corps Volunteers were funded by
  PEPFAR.

  The Volunteers and their programs are supported by 895 American direct hire
  staff: 194 overseas; 123 in the regional recruiting offices; and the remaining 578 in
  headquarters. Approximately 2,000 locally hired personnel complete post staffing.
  The Peace Corps also has corporate contracts domestically and overseas, principally
  for guard services and training, and hires expert consultants, largely for training and
  financial management.

                                        OIG Staffing

  During the reporting period, several long-time members of our office retired or left
  the Peace Corps. On August 31, 2007, Alice Bunker, Assistant Inspector General
  for Evaluations, retired after more than 10 years of federal service, all with the Peace
  Corps. Her positive impact on the Agency and the OIG will be felt for years to come.
  J. David Zielinski, the OIG Legal Counsel and former Assistant Inspector General for
  Investigations, retired on September 15, 2007 after four years of illustrious service.
  One of our senior evaluators, Carlos Torres also left the Peace Corps after five years of
  distinguished service with the Office of Inspector General.

  The OIG has moved quickly to fill these vacant positions and expects to have staff
  onboard shortly.

  The OIG also brought on board in June 2007 as an expert consultant, Jeffrey Lee,
  to assist with a variety of audit-related matters, including the Fiscal Year 2007
  Financial Statement Audit. Mr. Lee has over 32 years of federal service. He began his
  professional career as an evaluator with the Government Accountability Office (GAO)
  where he was assigned to GAO’s headquarters and later their Far East Branch office
  in Honolulu, Hawaii. He also served as an audit manager with the Air Force Audit
  Agency. He finished his federal career as a project manager with the Department of
  Defense Office of Inspector General (DOD/OIG). During his time in federal service,
  he managed and directed diverse performance and financial audits and other projects
  related to improving government performance. He is a recipient of Vice President
  Gore’s National Performance Review “Hammer” Award and the American Society of
  Military Comptrollers’ Team Achievement Award for his work in overhauling DOD’s

                     Semiannual Report to Congress   October 1, 2006 - March 31, 2007
travel process. After retiring from federal service, Mr. Lee worked as a manager at the
accounting firm of PricewaterhouseCoopers where he managed major segments of
federal audit engagements and assisted with other consulting services. Mr. Lee has a
B.S. degree in Business Administration from Lake Superior State University and is a
Certified Internal Auditor and a Certified Defense Financial Auditor.




   Peace Corps Office of Inspector General                                     
Advice and Assistance Provided
   to the Agency and Others
 During this reporting period, we provided advice to management on a number
 of serious issues that were brought to our attention. This advice was conveyed in
 written form and through briefings and meetings with the Director of the Agency
 and other senior-level Peace Corps officials.

                  Investigation of Fraud at Peace Corps/Niger

 In May 2007, we investigated a reported theft of approximately $22,000 in cash
 taken from the Peace Corps/Niger cashier’s safe. The OIG assigned an auditor
 and an investigator to respond to the reported incident. The theft was noticed by
 Peace Corps/Niger staff after the cashier did not report to work and could not be
 reached. The investigation was conducted on-site at the Peace Corps/Niger post.
 Our investigation confirmed that approximately $4,400 was taken from the cashier’s
 safe and an additional $39,246 was embezzled from the post’s imprest fund through
 various methods over a 40-month period. The former Peace Corps/Niger cashier is
 being sought for the crime.

 The investigation disclosed that a significant contributing factor to the cause of
 the embezzlement was lack of effective supervision. The perpetrator was allowed
 to circumvent internal controls in place by ignoring Peace Corps policies and
 procedures related to imprest fund management and operations. During the time of
 the incident’s occurrence, the cashier’s supervisor was cited for poor performance and
 placed on a Performance Improvement Plan (PIP). The supervisor was eventually
 removed from the position for failing to meet minimum performance standards.
 However, the removal was not timely because a second PIP had to be initiated after it
 was determined that the first one had not been adequately administered. Both PIPs
 were administered over an approximate 11-month period.

 We recommended that Peace Corps management take immediate corrective actions,
 including ensuring that there is: (a) effective supervision over cashier operations; (b)
 strong internal controls in place; and (c) full compliance with Peace Corps and other
 applicable policies and procedures.

                            Online Collaboration Tools

 We issued a memorandum to call management’s attention to significant
 vulnerabilities that exist with respect to the lack of internal controls in connection
 with two online collaboration tools that the Peace Corps intends to deploy.

 We stated our concerns about the Agency going forward with deployment of these
 tools before ensuring that appropriate controls are put into place. We also related


                    Semiannual Report to Congress   October 1, 2006 - March 31, 2007
our concerns about the possible duplication of efforts with respect to these tools with very
similar objectives and users.

We also expressed our concern that both tools rely principally upon “self-policing.” We
were informed that regional management has also raised questions about how content will
be monitored in both tools, for, in particular, non-project-focused entries, and inaccuracies.

We articulated our concerns about the lack of internal content controls currently in place
for each system, particularly as they relate to potential Volunteer use and recommended
that meaningful, reliable and substantive mechanisms of content control and review be
established prior to deployment of these systems.

                         Advice on Establishing Internal Controls

In August 2007, we were notified by Peace Corps/Burkina Faso of suspicious charges for
fuel purchases. The post uses fuel charge cards to purchase fuel for Peace Corps vehicles.
Each vehicle has an oil company fuel charge card assigned to it. Anytime a vehicle needed
to be fueled, an employee took the fuel charge card to a specified gas station and the card
was used like a credit card to purchase fuel without cash. The post identified numerous
fraudulent charges and requested assistance in investigating the fraudulent charges and
advice on implementing controls to prevent further fraudulent charges. We assisted in
the investigation and recommended improvements in internal controls to prevent further
fraudulent activities. These controls included:

•   Canceling fuel cards used for fraudulent activity.

•   Eliminating free access to the fuel cards by unauthorized personnel.

•   Requiring employees to sign for the card each time they use it, to strengthen individual
    accountability.

•   Closer monitoring of fuel card activities.

•   Improved recordkeeping on fuel use.

The post has taken steps to implement our recommendations. The investigation is
continuing and two suspects have been identified.

                          Clarifications to Recruitment Catalog

In September 2006, the Director of Peace Corps announced the creation of a Volunteer
Delivery Steering (VDS) committee to improve the process by which Peace Corps recruits,
screens, places and prepares potential candidates for Peace Corps service. In May and
June 2007, the Office of Communications and the VDS committee convened to discuss
how to improve the Peace Corps Recruitment Catalog in order to better communicate
the application process to potential candidates and to better prepare potential candidates
for the realities of life as a Peace Corps Volunteer. During this period, the OIG was
conducting a program review of the Peace Corps Medical Clearance System and had

     Peace Corps Office of Inspector General                                       
identified inconsistencies between how parts of the Medical Clearance System were
described online and in the Peace Corps Medical Kit (a set of instructions and
medical screening examination forms sent to applicants) and how they were described
in the Peace Corps Recruitment Catalog. We were made aware of the project to
improve the Recruitment Catalog and shared our observations with the Recruitment
Catalog working group to ensure that the inconsistencies in messaging between
different Peace Corps publications did not persist. The working group incorporated
the OIG’s suggested improvements into the new Recruitment Catalog which was
published in October of 2007 and will be distributed to Peace Corps applicants
starting in November 2007.
OIG Advice on Revision of Manual Section Regarding Internal Controls

The OIG audit team reviewed and provided suggestions to the Office of the Chief
Financial Officer during its revision of the Peace Corps Manual Section regarding
internal controls established to ensure effective and efficient operations, reliable
financial reporting, compliance with applicable laws and regulations, and the
safeguarding of assets.

Based upon their extensive post auditing experiences, the OIG audit team provided
substantive suggestions regarding appropriate definitions of critical terms, elaboration
of internal control procedures as well as the roles and responsibilities of various senior
staff members in the preparation of risk assessments and the continuous monitoring
and improving of the effectiveness of the internal controls put into place.




                  Semiannual Report to Congress   April 1 - September 30, 2007
The Inspector General’s Statement on the Peace Corps’
     Management and Performance Challenges


      As required by the Reports Consolidation Act of 2000 and Office of Management
      and Budget guidance, I am pleased to submit the following summarizing what I
      consider to be the most serious management challenges facing the Peace Corps. This
      statement has been compiled based on Office of Inspector General (OIG) audits,
      investigations, evaluations, and the general knowledge of the agency’s operations.


      Challenge		                Safety and Security of Peace Corps 			
      			                        Volunteers

      Violent crime against Volunteers continues to be a management challenge. We
      are preparing a comprehensive report on our evaluation of the major components
      of Peace Corps’ safety and security strategy. The report will discuss the agency’s
      progress in ensuring that the Volunteers are working and living in a safe and secure
      environment and make recommendations for improving safety and security. Our
      work in this area has disclosed that the agency’s crime statistics have an unacceptably
      high error rate and that the agency’s safety and security training for Volunteers is
      based upon these inaccurate figures. In addition, all Country Welcome Books that
      are sent to prospective Volunteers reviewed by the OIG included outdated and
      incorrect data and information. Finally, we have some concerns about the efficacy of
      the posts’ Emergency Action Plan tests.


      Challenge		                Peace Corps’ Medical Clearance System

      Several aspects of the agency’s Medical Clearance System (MCS), including the
      length of the process, the lack of transparency and communication, and insufficient
      reimbursement costs present significant management challenges to the Peace Corps.
      Furthermore, the Director’s initiative to recruit a greater number of Volunteers in
      the 50+ age range will place an increased burden on the capacity of the Volunteer
      Delivery System (VDS) in general and the MCS in particular.

      The OIG is currently conducting an evaluation of the Medical Clearance System.
      The MCS evaluation will make recommendations on the following specific areas:
      screening review systems and procedures; the screening review timeframe and
      costs; medical screening guidelines, communicated guidance, system transparency,
      interoffice communication and customer service; staff training; and the
      reimbursement fee schedule. In the next fiscal year it will be critical for the agency to
      allocate the financial and technical resources that enable its Office of Medical Services
      to implement recommendations for needed improvements that are key to ensuring
      the success of the 50+ initiative and the overall VDS program.
            Peace Corps Office of Inspector General                                      
Challenge		             Information Technology Management

Management has made improvements in strengthening the Peace Corps’ information
technology architecture and security management. However, several issues related
to information security and risk management of system architecture remain a
management challenge. The most significant issues follow:

•   Eleven of 12 of the agency’s information systems have not received final 	
    certifications and accreditations indicating that they are acceptable to use.

•   Processes for systems development life cycle and change management have not
    been fully or consistently implemented.

•   Although significant progress has been made, some systems’ contingency plans
    need to be further tested and refined to ensure full recovery following a major
    disruption of service.

In addition, the agency is planning to deploy two on-line collaboration tools
without the appropriate and necessary internal controls in place to limit the agency’s
vulnerabilities.


Challenge		             Performance Management and Disciplinary                          	
			                     Actions

A broad management challenge that exists within the agency involves the reluctance
of management to undertake the necessary disciplinary actions against employees
where there is evidence of unsatisfactory performance and/or inappropriate conduct.

In the past fiscal year, the OIG investigative unit brought five cases of criminal
conflict-of-interest on the part of Peace Corps staff members, including country
directors, and additional cases involving allegations of improper transfer of
Government property, falsification of official Government forms and violations of
Peace Corps rules and regulations on the part of both staff members and Volunteers
to management’s attention. Notwithstanding these findings, agency management
has been often unwilling to impose disciplinary actions, deciding in these cases to
take either no action or engage in a settlement with the offending party in which the
agency agrees to expunge any adverse documentation from the employee’s personnel
file.

In addition, failures on the part of Peace Corps posts to follow-up appropriately with
employees who had significant performance deficiencies has led to significant losses
and mismanagement of agency resources.



    10              Semiannual Report to Congress   April 1 - September 30, 2007
The Office of Inspector General has engaged in discussions with senior-level officials
at the Peace Corps, including the Director and Chief of Staff about the above, and
Peace Corps management has stated that it is committed to taking the appropriate
steps to rectify this challenge in the future.



Challenge		                Financial Management

Financial management and compilation of accurate and complete financial
statements in accordance with generally accepted accounting principles continues to
be a management challenge. A qualified opinion was received on the balance sheet
for FY 2006 and further improvements in financial reporting have been achieved this
year.



Challenge		                Post Imprest Fund Management and Other 		
          	                Cashier Operations

Peace Corps manages cash accounts maintained as imprest funds in 68 posts in
the countries served by the Peace Corps. The value of funds flowing through the
imprest fund was approximately $21 million during FY 2007. The fund’s purpose
is to manage the numerous day-to-day business activities carried on at Peace Corps
posts. Incidents of imprest fund-related embezzlement and theft leading to cash
losses continue to be a management challenge. Significant losses have resulted from
ineffective oversight and internal control over the imprest fund and other cashier
operations. We are currently investigating two cases involving an armed robbery
and embezzlement of money associated with the imprest fund and other cashier
operations. Resulting estimated losses were over $85,000. Our auditors have also
noted problems involving management of the imprest fund in nearly every audit of
a Peace Corps post that they have conducted within the past fiscal year. This area
requires increased management focus in improving policies, procedures, supervisory
oversight, and internal control at the overseas posts.



Challenge		                Managing Resources from Other Agencies:
			                        The President’s Emergency Plan for AIDS 		
			                        Relief

Accountability for Federal funds provided to the Peace Corps through the President’s
Emergency Plan for AIDS Relief (PEPFAR) is a significant management challenge.
This funding is managed by the State Department Global Aids Coordinator and is
specifically limited to support AIDS-related programs. Greater emphasis on program
guidance is critical to effectively managing the funds and ensuring the funds are
delivered as legislatively intended.

     Peace Corps Office of Inspector General                                      11
The OIG intends to conduct a comprehensive combined audit and evaluation of
the agency’s PEPFAR program in the coming fiscal year to assess how the agency is
dealing with this challenge.


Challenge		            Support for Volunteers Working in HIV/AIDS	
			                    Projects

While the agency has begun to take steps to increase the amount and quality
of support to Volunteers working in HIV-prevalent countries, the challenge to
management remains to mobilize resources sufficient to the task. To date, the burden
of responding to Volunteers’ mental health needs has fallen largely on the Peace
Corps Medical Officers at post and the staff in the Office of Special Services, who
provide mental health counseling to Volunteers. The Office of Special Services, in
conjunction with the Center for Field Assistance and Applied Research, has also
provided training to staff and Volunteers on special issues. However, the effort to
support Volunteers’ mental health needs should be multi-faceted and agency-wide.
According to the 2006 Peace Corps Volunteer Survey, when asked to rate factors
that create stress or emotional health issues, 24 percent of the Volunteers rated their
primary work assignments as considerably to exceptionally problematic and 30
percent rated their work assignments as moderately stressful.




   12               Semiannual Report to Congress   April 1 - September 30, 2007
Audits and Program Evaluations

                                                  Overview
 The Peace Corps’ OIG focuses principally on the programs, financial and
 administrative operations, and staff support that sustain Peace Corps Volunteers
 serving around the world. We accomplish this through audits and evaluations of
 the agency’s posts overseas and its functions in headquarters and domestic recruiting
 offices.

 Both individual staff members and multi-disciplined teams carry out these reviews.
 For some highly technical audits, we also contract with firms and individual experts.

 Audits examine operations and financial transactions to ensure that good
 management practices are being followed and that resources are adequately protected
 in accordance with laws and regulations. Our audits are conducted in accordance
 with generally accepted government auditing standards issued by the Comptroller
 General of the United States.

 Most of our audits focus on the operations and management of Peace Corps’ overseas
 posts, which include a review of financial and administrative practices and the safety
 and security of persons and property. We also conduct audits of specific headquarters
 and regional activities, as well as contract and follow-up audits, as needed. In
 addition, the Accountability of Tax Dollars Act provides the OIG with the
 responsibility for the annual audit of Peace Corps’ financial statements. Furthermore,
 the Federal Information Security Management Act specifies that the OIG annually
 review the information security program of the agency, which is part of our auditors’
 responsibilities.

 Program Evaluations review the operation and administration of a specific unit of
 the Peace Corps or may involve a limited review of a particular problem, issue, or
 function.

 Most evaluations are of overseas posts and provide management with a
 comprehensive assessment of how overseas programs are functioning. This includes
 a review of the Volunteers’ sites and assignments, their safety and security, the quality
 of their training, the quality of the support provided to them, and the adequacy of
 the post’s administrative infrastructure to manage the program. Evaluations focus
 particularly on the effectiveness, satisfaction, and well-being of the Volunteers,
 including their housing, health care, and safety. Evaluators interview a representative
 sample of 20% or more of the Volunteers at their sites, and interview appropriate
 Peace Corps staff and some of the Volunteers’ co-workers and supervisors.

        Peace Corps Office of Inspector General                                      13
                    Summary of Audits and Evaluations

          Peace Corps Fiscal Year 2007 Financial Statement Audit

During this reporting period, we exercised our contract option with an independent
public accounting firm to conduct the audit of the Peace Corps’ fiscal year 2007
financial statements. This audit is required by the Accountability of Tax Dollars Act
of 2002. At this time, the audit is ongoing. We intend to issue the audit report by
the mandated reporting date of November 15, 2007, as established by the Office of
Management and Budget (OMB). Details on this audit will be included in the next
Semiannual Report.

       Review of the Agency’s Federal Information Security Program

The Federal Information Security Act (FISMA) requires Federal agencies to
establish security protections and a program to secure its information systems from
unauthorized access, use, disclosure, modification and other harmful impacts. This
is governed through specific guidelines established by the National Institute of
Standards and Technology. In addition, FISMA requires the OIG to review their
agency’s security program annually. OMB is mandated to report to Congress on
the overall progress made by Federal agencies. To meet this mandate, OMB has
developed a data collection process which combines reporting from each Federal
agency and their respective OIGs to measure the progress of developing and
institutionalizing the agency’s security program. OMB submission is due annually
on October 1. Preliminary results of the review of the security program indicate that
the agency has made progress in becoming fully compliant with FISMA. Comments
on final review results will be covered in the next Semiannual Report.

In March 2007, as an extension of the FISMA review effort, the OIG engaged a
contractor to perform a privacy and vulnerability assessment of the Peace Corps’
external website and intranet site. The assessment disclosed six areas of concern and
proposed recommendations for corrective action. We are currently facilitating the
process of audit resolution with Peace Corps management. Once implemented, these
corrective actions will improve overall security and minimize vulnerabilities associated
with the agency’s external website and intranet site.

                          Peace Corps/Cameroon: Audit

We conducted an audit of Peace Corps/Cameroon January 8 - 26, 2007. The
Peace Corps began its program in Cameroon in 1962. At the time of our visit, 102
Volunteers were working in four project areas: education, health, agroforestry, and
small enterprise development. At the time of our audit, the country director was
completing his five year tour of duty. The new country director arrived at the post in
early February 2007.


  14               Semiannual Report to Congress   April 1 - September 30, 2007
Our audit disclosed that Peace Corps/Cameroon’s financial and administrative
operations and its compliance with the agency’s policies and procedures and federal
regulations required improvement. Some of the more significant findings are
summarized below:

•	 Policies and procedures related to operation and management of the imprest fund
   were not being followed.
•	 Recording of billing and collection transactions was not in accordance with
   policies and procedures and related records were not adequately monitored by
   post management to ensure accuracy and timely collections.
•	 Volunteer settling-in surveys were not always performed and termination
   notifications related to Volunteer tour completions were not sent to Peace Corps
   headquarters in a timely manner.
•	 Safeguarding of Volunteer personal data was deficient.
•	 Accountability over funds related to operation of the Volunteer hostel was
   lacking.
•	 Duties related to inventorying of Peace Corps property were not properly
   segregated and the inventory records were inaccurate.
•	 An inventory of medical supplies was not maintained as mandated by policy.
•	 Policies and procedures related to vehicle use and associated recordkeeping were
   not being followed.
•	 Timely submission of travel vouchers was not being accomplished and in-country
   per diem rates were out of date.
•	 Policies and procedures related to approval for two leases were not being
   followed.
•	 Maintenance of contract files was inadequate.
•	 Timely payment to personal services contractors was not being accomplished.
•	 Control over staff time and attendance was inadequate.
•	 Documentation for IT security training was deficient.

Management concurred with 57 of 60 recommendations and did not concur with
three recommendations. At the end of the reporting period, 56 recommendations
are closed and four remain open.

                                Peace Corps/Jordan: Audit

We conducted an audit of Peace Corps/Jordan May 6 - 24, 2007. Over 300
Volunteers have served in Jordan since Peace Corps/Jordan began its program in
1997. The program was suspended in November 2002 and resumed with the arrival
of Volunteers in February 2004. Volunteers currently work in three project areas:
English education, special education, and youth development.

Our audit disclosed that Peace Corps/Jordan’s financial and administrative operations
required improvement. Some of the more significant findings are summarized below:



     Peace Corps Office of Inspector General                                    15
•	 Imprest fund policy on funding ceilings and use of the emergency payment
   process was not followed.
•	 Required settling-in Volunteer allowance surveys were not being performed.
•	 Some policies and procedures on managing billings and collections were not
   followed.
•	 The government purchase card was not being utilized.
•	 Record management of contract files was inadequate.
•	 Internal controls related to vehicle use were breached.
•	 The travel authorization and voucher process was not being managed in
   accordance with Peace Corps and federal travel guidance.
•	 Policies and procedures related to time and attendance practices and records
   maintenance were not being followed.
•	 Inventory of medical supplies was inaccurate and not maintained in accordance
   with policy.

Management concurred with all 31 recommendations. At the end of the reporting
period, 30 recommendations are closed and one remains open.

                            Peace Corps/Niger: Audit

We conducted an audit of Peace Corps/Niger October 25 - November 10, 2006.
The Peace Corps began its program in Niger in 1962 with seven Volunteers teaching
English as a foreign language. At the time of our visit, there were 90 Volunteers
working in Niger. Peace Corps/Niger’s current project areas are natural resources
management, health, agriculture, community and youth education, and community
development.

We found that several of the post’s financial and administrative operations were not
functioning effectively and did not comply with Peace Corps’ policies, procedures,
and other applicable guidance. Some of the more significant findings are summarized
below:

•	 Funds were being diverted from Volunteer allowance checks for other purposes,
   accountability over the diverted funds was inadequate, and surveys of the
   allowance activity were not being conducted.
•	 Billings and collections activities were not being conducted in accordance with
   Peace Corps policies and procedures.
•	 Interim advances were not being cleared promptly or before a staff person
   received additional advances.
•	 Alternate cashier and sub-cashier advances were not in balance and accountability
   over advances to sub-cashiers was inadequate.
•	 Policy on the administration of Volunteer grant funds was not being followed.
•	 Policies and procedures on the use and cost accounting for post vehicles were not
   being followed.
•	 Lease agreements were inaccurate and did not include essential information.


  16               Semiannual Report to Congress   April 1 - September 30, 2007
•	 Personal services contractor files did not contain required information in
   accordance with Peace Corps policy.
•	 Government purchase card users did not obtain pre-approvals or obligate funds
   prior to using the card.
•	 Timekeeping records for compensation time were not adequately maintained and
   related policy was lacking.
•	 Receipting for accountable property was inadequate.
•	 Documentation on computer use was not being executed in accordance with
   policy.

Management concurred with all 57 recommendations. At the end of the reporting
period, 37 recommendations are closed and 20 remain open.

                                Peace Corps/Senegal: Audit

We conducted an audit of Peace Corps/Senegal October 25 - November 10, 2006.
The Peace Corps began its program in Senegal in 1963. More than 130 Volunteers
currently serve in Senegal in four project areas: health education, agricultural,
business development, and environmental technology.

The post has made progress since our last visit in 2001. In general, the post’s
financial and administrative operations were functioning effectively and complied
with Peace Corps policies and federal regulations. However, we did find certain areas
in need of improvement. Some of the more significant findings are summarized
below:

•	 Volunteer termination notifications related to tour completion were not being
   sent to Peace Corps headquarters in a timely manner.
•	 Resolution of outstanding debts was not timely.
•	 Some policies and procedures related to the operation and management of the
   imprest fund were not being followed, impacting on the overall effectiveness of
   internal controls.
•	 Management of host country contributions was not in accordance with policy.
•	 Inventories were not accurate and complete.
•	 Policies and procedures related to recordkeeping on vehicle use and maintenance
   were not being followed.
•	 The policy on an award of a lease was not followed.
•	 Personal services contractor files were not maintained in accordance with policy.
•	 Purchases made with the government purchase card were not always approved or
   obligated in advance as required by policy.
•	 Accountability for Peace Corps’ property was inadequate.
•	 Records were not maintained on compensation time earned or used.
•	 International Cooperative Administrative Support Services outside the pre-
   approved list were used without obtaining the required waivers.



     Peace Corps Office of Inspector General                                    17
Management concurred with 18 of 21 recommendations. Two recommendations
were partially concurred with, and management did not concur with one
recommendation. At the end of the reporting period, three recommendations are
closed and 18 remain open.

                            Peace CorpsThailand: Audit

We conducted an audit of Peace Corps/Thailand May 8 - 24, 2007. The Peace
Corps began its program in Thailand in 1962. At the time of our visit, there were
106 Volunteers working in education and community development. This post is
also used as a regional site for Volunteer/staff medical evacuations and Peace Corps
conferences. Additionally, the post provides administrative support to the regional
Peace Corps Safety and Security Officer located in Thailand. In recent years, the
post received emergency funding and hosted Crisis Corps Volunteers in support of
tsunami recovery activities.

Our audit found that generally the post’s financial and administrative functions were
operating effectively and efficiently. However, as summarized below, we noted some
problems in selected administrative areas:

•   Recording of billing and collection transactions and issuance of receipts for 		
    payments were not in accordance with policies and procedures.
•   Segregation of duties for receipting and issuing property was lacking and there
    was an internal control gap resulting from insufficient Peace Corps guidance.
•   Physical security over medical supplies was generally inadequate and the required
    periodic inventories of controlled substances were not being performed.
•   Peace Corps policies and procedures on vehicle management were insufficient,
    and in some cases, conflicting.

Management concurred with 12 recommendations and partially concurred with
two of the 14 recommendations made. At the end of the reporting period, 10
recommendations are closed and four remain open.

                            Peace Corps/Zambia: Audit

We conducted a partial audit of Peace Corps/Zambia September 8 – 15, 2006 during
our visit to perform a follow-up audit at the post. Coverage was limited to items that
were previously not included in the audit scope during our August 2005 visit.

A country agreement inviting the Peace Corps to work in Zambia was signed by the
United States and Zambia on September 14, 1993. The first group of Volunteers was
sworn in on April 7, 1994. At the time of our visit, approximately 160 Volunteers
were promoting sustainable development through activities in agricultural and
natural resource management, health and sanitation, education, and humanitarian
assistance.

    18              Semiannual Report to Congress   April 1 - September 30, 2007
Peace Corps/Zambia’s financial and administrative operations, in general, were not
routinely complying with established internal controls. A contributing factor to this
condition was related to a lack of post administrative personnel at the time of our
audit. Some of the more significant findings are summarized below:

•   Imprest fund policies and procedures were not being followed and as a result, the
    associated funds were not properly safeguarded.
•   The imprest fund had a significant un-reconciled overage.
•   Volunteer personal property was not being managed in accordance with Peace
    Corps policy.
•   Cash advances were not properly cleared as required by Peace Corps policy.
•   The property management inventory listing was not complete or accurate.
•   Government purchase card purchases were not pre-approved or obligated prior to
    making a purchase.
•   Control over staff time and attendance was inadequate.

Management concurred with 19 of the 20 recommendations and partially
concurred with one recommendation. At the end of the reporting, period eight
recommendations are closed and 12 remain open.

                     Peace Corps/Honduras: Follow-Up Audit

During the period March 26 – 30, 2007, we conducted a follow-up to our audit
carried out March 14 – April 6, 2004. Management concurred with all 29
recommendations contained in our report issued in September 2004. We reviewed
management’s compliance with the actions agreed upon for the 29 recommendations.
One recommendation was re-opened that had been previously closed.

We found that the combination to the cashier’s safe had not been changed since
September 2004. Peace Corps policies and procedures require that the safe
combination be changed whenever a new cashier or country director is assigned, and
at a minimum, once a year.

At the end of the reporting period, 28 recommendations are closed and one remains
open.

                       Peace Corps/Panama: Follow-Up Audit

During the period March 19 – 23, 2007, we conducted a follow-up to our audit
carried out October 17 – November 5, 2004. Management concurred with all
24 recommendations contained in our report issued in September 2004. We
reviewed management’s compliance with the actions agreed upon for the 24 audit
recommendations. As a result of our review, four recommendations were re-opened
that had been previously closed.


     Peace Corps Office of Inspector General                                     19
The four re-opened findings related to the imprest fund, procurement, and Volunteer
allowances. We found that Peace Corps/Panama was not in full compliance with
those particular policies and procedures and required that additional steps be taken
by management before the four findings could be closed.

At the end of the reporting period, 20 recommendations are closed and four remain
open.

        Safeguarding of Social Security Numbers: Follow-Up Audit

During the period January 11 – March 1, 2007, we conducted a follow-up to our
audit carried out June through November 2004. Management had concurred with
all six recommendations made in the related audit report.

Although management had concurred with all six of the recommendations in
the original audit report, we closed none of the recommendations at that time.
Subsequently, three of six recommendations were closed by the Peace Corps chief
compliance officer. During our follow-up audit, we verified the status of all six
recommendations and determined that the three closed recommendations needed to
be re-opened, and therefore all six recommendations were in an open status awaiting
additional management actions. Subsequent to our follow-up audit, management
has taken action and we have closed two recommendations.

At the end of the reporting period, two recommendations are closed and four remain
open.

                 Peace Corps/Azerbaijan: Program Evaluation

During the period November 6 - 22, 2006, we conducted a program evaluation of
Peace Corps/Azerbaijan. The Peace Corps began its program in 2003, beginning
with a project in the education sector. The post launched its second project, the
Community Economic Development project, in 2005. At the time of our review, 71
Volunteers were serving in the two projects.

We found that Peace Corps/Azerbaijan post was providing adequate training, site
assignment, administrative support, and safety and security support to Volunteers.
Volunteers told us they were satisfied with their language, cultural, health and safety
and security training, but expressed some concerns regarding technical training in
both projects.

Our review also disclosed weaknesses in internal controls at the post in the
management of the Peace Corps Partnership Program; subsequent to our visit, the
country director voluntarily disclosed further irregularities in the management of gifts
and contributions at the post.


   20               Semiannual Report to Congress   April 1 - September 30, 2007
Management concurred with 12 of our 16 recommendations, partially concurred
with one recommendation, and did not concur with three recommendations. We
accepted their non-concurrence to one recommendation. At the end of the reporting
period, 14 recommendations are closed and two remain open.

             Peace Corps/Eastern Caribbean: Program Evaluation

During the period November 6 - 22, 2006, we conducted a program evaluation of
Peace Corps/Eastern Caribbean. The Peace Corps entered the Eastern Caribbean in
1961, when St. Lucia became one of three pilot Peace Corps posts worldwide. Since
that time, Peace Corps has expanded its presence throughout the region. Volunteers
are working on 10 islands in six nations: Antigua and Barbuda, Dominica, Grenada,
St. Kitts and Nevis, St. Lucia, and St. Vincent and the Grenadines. Over 4,300
Volunteers have served in the Eastern Caribbean. At the time of our visit, 123
Volunteers were living and working throughout the Eastern Caribbean.

A new country director had recently arrived at the post and had begun implementing
positive changes. However, during our review, we noted several deficiencies in post
management and Volunteer support in areas as diverse as safety and security and
Small Project Assistance grant funding. Specifically, we found:

•   Due to shortcomings in the post’s Emergency Action Plan, the post might not be
    able to evacuate Volunteers in the event of a major hurricane.
•   The post’s annual safety and security Compliance Report contained inaccuracies
    in at least 10 major areas.
•   Some Associate Peace Corps Directors did not conduct adequate and effective site
    visits, which risked Volunteer safety and security and threatened the successful
    implementation of the post’s new project plan.
•   Eleven percent of the Volunteers in our sample did not receive prescription
    medications and re-fills on time.
•   The post’s Peace Corps Medical Officers maintained expired medical
    supplies, made such supplies available to Volunteers, and did not ensure that
    pharmaceuticals were consistently stored in climate-controlled environments.
•   The post’s Small Projects Assistance Committee exercised weak fiscal oversight,
    resulting in a lost opportunity to fund at least six additional grants. Funds
    totaling $8,547 were still outstanding or unaccounted for beyond the required
    grant completion dates.
•   The post did not enforce the procedures it imposed upon community
    organizations regarding the use of the President’s Emergency Plan for AIDS
    Relief funds.

Management concurred with 29 of our 31 recommendations. At the end of the
reporting period, three recommendations are closed and 28 remain open.

     Peace Corps Office of Inspector General                                      21
                   Peace Corps/Guinea: Program Evaluation

During the period November 24 – December 17, 2006, we conducted a program
evaluation of Peace Corps/Guinea. Peace Corps Volunteers have been in Guinea
from 1962 - 1966, 1969 - 1971, and 1985 until an evacuation to Mali in January
2007. Volunteers returned in July 2007. At the time of the OIG evaluation, Peace
Corps/Guinea had 114 Volunteers working in four projects: education, agroforestry/
environment, health and HIV/AIDS, and small enterprise development.

While the post provided vital support to the Volunteers and mitigated Guinea’s
challenging transportation and communication infrastructure with its three
regional houses, each staffed by a regional coordinator, we found that the regional
coordinators were under-utilized.

We also found that pre-service technical training for Small Enterprise Development
Volunteers and Agroforestry Volunteers did not provide the Volunteers with the
hands-on training they needed to undertake their work assignments. The lack of
applied, hands-on training impaired the credibility of the Volunteers with their target
population and their effectiveness in transferring skills. Our review of the Peace
Corps Partnership Program found areas for improvement in the project application
process and oversight at both the post level and within the Office of Private Sector
Initiatives. The post’s process for approving project proposals did not ensure that
proposals met agency standards prior to being submitted to Office of Private Sector
Initiatives for funding.

We also identified the following four areas which would strengthen the post’s ability
to respond to emergencies in a timely manner:

•   Ensuring that the post’s electronic and paper records for Volunteer emergency
    contact information are up-to-date and complete. Paper versions of the site
    locator forms or emergency contact sheets for some Volunteers were missing or
    contained out-of-date information.

•   Consistent enforcement of out-of-site policies and the submission of Volunteer
    leave slips.

•   Testing of the Volunteer warden system after the arrival of every new group of
    Volunteers.

•   The reinstatement of regular radio checks to ensure that the post can reach
    Volunteers stationed in rural areas in case of an emergency.

Management concurred with 38 recommendations and partially concurred with six
recommendations. At the end of the reporting period, 34 recommendations are
closed and 10 remain open.




    22              Semiannual Report to Congress   April 1 - September 30, 2007
                              Investigations

                                                   Overview
                                                       
The investigative unit responds to allegations of criminal wrongdoing, fraud, and
violent crimes that are forwarded to the Office of Inspector General through audits
and evaluations, hotline complaints, and Volunteers, Trainees, staff, and the public.
We also investigate ethics and conflicts of interest violations. The Office of Inspector
General is charged by law with the conduct of criminal investigations. The Inspector
General is authorized by statute to develop policy for the conduct of investigations,
and to coordinate and supervise both domestic and overseas investigations.
Investigators work with other offices within the Agency or with other agencies,
including Immigration and Customs Enforcement (ICE), the State Department’s
Diplomatic Security Services (DSS), the Federal Bureau of Investigation (FBI), and
the Department of Justice public prosecutors, as appropriate.

With over 8,000 Volunteers in more than 70 countries, incidents of crime against
them are inevitable. Part of the Agency’s support to Volunteers who become victims
is a protocol under which country directors report incidents of violent crimes to
the OIG. The OIG manages and coordinates the Agency’s part of the investigative
and prosecution process from the initial incident to the closing of the case. We
coordinate the investigation of the crimes with the country director, headquarters
offices, DSS, and the embassy’s Regional Security Officer (RSO). We work with the
RSO to develop the best evidence for local trial. This might include preparation
of witness statements, developing photo spreads, or obtaining DNA analysis. As
needed, we accompany witnesses back to the country where the crime occurred for
lineups, depositions, and trial. We consult with the Department of Justice’s Office
of Foreign Litigation and receive assistance from the FBI, including the forensic
laboratory at Quantico and the overseas legal attachés, the Armed Forces Institute of
Pathology at the Walter Reed Army Medical Center, and the Secret Service Forensic
Services Division. Our role in coordinating the investigation and assisting in the
prosecution of violent crimes against Peace Corps Volunteers brings a high volume
of work but also gives us the opportunity to help curb violence against Peace Corps
Volunteers. We also work with host country justice officials to prosecute violent
crimes against Volunteers.

The OIG operates a 24/7 duty officer system for country directors to make direct
and immediate contact with criminal investigators in this office to coordinate
the response to violent crimes against Volunteers and assist the victims of crime.
Early intervention and coordinated support has enhanced the quality of overseas
investigations. We may, in limited circumstances, also arrange for a local lawyer to be
hired to help the prosecutor in making the case against the perpetrator of the crime.


         Peace Corps Office of Inspector General                                     23
The 2004 “Equal Access to Justice Act” and other Congressional enactments, as well
as the Attorney General’s guidance, provide a prescriptive framework for the OIG’s
victim advocacy responsibilities and authority.

                Missing Peace Corps Volunteer Investigation

On March 4, 2001, the mother of a Volunteer reported that her son had not been
in contact with his family for several weeks. The Volunteer had been assigned to the
Zongo Valley (Bolivia) in late December 2000. The Zongo Valley is a large canyon
located 2-3 hours outside of La Paz, Bolivia, on the other side of a 15,600-foot
mountain peak. The area is anchored by the River Zongo, and the Bolivian Electric
Authority operates multiple hydroelectric plants along its path.

On March 5, 2001, a search for the Volunteer was initiated in the Zongo Valley by
his local supervisor and other Peace Corps personnel. The search continued through
April 2001, and was conducted by a variety of teams, including a Bolivian search and
rescue team, personnel from the U.S. Embassy Regional Security Office and Bolivian
National Police, and Peace Corps personnel with trekking, mountaineering, and
whitewater experience.

The FBI joined the investigation into the Volunteer’s disappearance in April 2001,
and locations in the Zongo Valley were again searched in June 2001. An assessment
team returned to the Zongo Valley in August 2002 to consider other potential sites to
search. As recently as December 2005, a Bolivian search team returned to the Zongo
Valley and searched a seven kilometer trail between two points that may have been
traversed by the missing Volunteer.

The local investigation, in which several U.S. federal law enforcement agencies
participated, revealed no evidence of foul play that could have contributed to the
Volunteer’s disappearance. His personal effects, including wallet, ID, bank card, and
cash were found undisturbed in the locked room he rented in the Zongo Valley.

Over the past several years, the U.S. Embassy and Peace Corps have conducted
several publicity campaigns and media blitzes in Spanish and local Indian languages
on local television, radio, and newspapers. There is a $25,000 reward for any
information regarding the Volunteer and/or his whereabouts. In 2004, the OIG
contracted two highly qualified private investigators to review and re-investigate
his disappearance. In 2005, we also established a non-U.S. tip line for anonymous
callers to report any information as part of the publicity campaign and reward.
Although the phone line received calls, none of the tips provided any useful or
actionable information.

As a result of a review of the documentation surrounding the investigation and
the multiple searches conducted in the Zongo Valley, the OIG determined that a
mapped, grid search using global positioning system (GPS) coordinates to document
all areas and locations that have been searched plus those that needed further review
should be conducted.

  24               Semiannual Report to Congress   April 1 - September 30, 2007
In April 2007, an OIG agent accompanied two National Park Service Search and
Rescue Managers to Bolivia to conduct an assessment of a potential search area.
In addition, the OIG agent requested and obtained documents from other law
enforcement agencies regarding this investigation. In July 2007, two OIG agents
returned to Bolivia to conduct follow-up interviews with several host country
nationals regarding the missing Volunteer. As a result of those interviews and the
review of the documents, it was determined that the missing Volunteer was last seen
in a village with an altitude of approximately 11,600 feet in the Zongo Valley. The
Volunteer had presented his ecotourism project to the local community at a monthly
assembly meeting. Our investigation disclosed that the Volunteer departed the
meeting area alone during torrential rains and minimal visibility. He had to hike
a winding trail with thousand-foot drop-offs for approximately four miles. The
Volunteer was trying to reach a school where he had left a sleeping bag and clothing
the night before his visit to the community for his presentation. School officials and
local residents never saw the Volunteer return to the school.

In September 2007, the Inspector General led a 28-person search team comprised of
eight specially trained National Park Service Search and Rescue personnel, four dog
handlers and four cadaver dogs, a veterinarian, four OIG agents, a Bolivian search
and rescue team, personnel from the United States Embassy Regional Security Office,
Bolivian National Police, FBI officials, and other personnel to search the area where
it is believed the Volunteer had the highest probability of an accident, based on the
steep, vertical terrain and treacherous precipices between the community and the
school. A thorough search was conducted amidst very difficult weather conditions.
Several items of evidentiary value were collected and submitted to the Armed Forces
Institute of Pathology for analysis.

                   Investigation of the Murder of a Volunteer

During this reporting period, we were notified of a Volunteer who was overdue in
returning to her site to attend graduation proceedings at the local school where she
was serving as an English teacher. The Volunteer had been visiting a remote location
popular with tourists and had told friends that she planned to hike in alone, stay for
a short period of time, then return to her home site. When she failed to return as
planned, numerous telephone calls were made to her cell phone, all of which went
unanswered. A team from the United States Embassy was assembled and a search
commenced in the area surrounding her last known location. Interviews conducted
placed the Volunteer at a small café overlooking the valley of the search. The
Volunteer allegedly purchased a soda, continued on her hike, failed to check in at the
local tourist checkpoint, and was never seen again.

Within 72 hours of being notified, we dispatched an OIG agent specializing in
search management to begin coordinating with the local police, military, local
guide services, and U.S. Embassy to formalize a search of the area. On the second
operational period of the formalized search, the Volunteer’s remains were located in a
remote, shallow grave. Foul play was immediately suspected.

     Peace Corps Office of Inspector General                                      25
The café owner’s husband was immediately identified as the main suspect, having
departed the valley for an extended period of time without explanation. An eye-
witness identified him fleeing the scene of the crime on the time and date of the
Volunteer’s disappearance. The suspect was arrested after an extensive manhunt.
The suspect submitted a voluntary statement to police in the presence of his defense
attorney claiming that he mistook the Volunteer for a neighbor with whom he had
been quarrelling. He claimed the Volunteer bumped into him while hiking on the
trail and that he turned around and bludgeoned her multiple times with a rock and
log. The Volunteer’s death was caused by multiple blunt-force traumas to the head.

The suspect remains in custody while being tried for murder where it is believed his
defense will attempt to assert the involuntary nature of the crime, in order to secure
a lesser conviction. The OIG, on behalf of the Volunteer’s family, has retained a local
attorney with extensive experience in prosecuting murder suspects to assist in the
prosecution of the case. In coordination with the Volunteer’s family and their stated
wishes, the local attorney and prosecutor filed charges of murder, the maximum
allowable under host country law.

Hearings pertaining to this case began on August 21 and 22, 2007, during which
time the defendant reconfirmed his admission of killing the Volunteer, though
qualified his admission by asserting the homicide was “accidental.” The witness
who observed the defendant fleeing the crime scene testified, as did the Volunteer’s
mother, who traveled to the country to visit the Volunteer’s home site and crime
scene and to offer testimony in court. The next court proceeding has been scheduled
for October 8, 2007, and the following dates, if necessary: November 5 and 6, 2007;
December 3 and 4, 2007; January 7 and 8, 2008; February 4 and 5, 2008; March 3
and 4, 2008; April 7 and 8, 2008; and May 7 and 8, 2008.

                 Investigation into Abuse of Computer Usage

In 2006, the Office of the Chief Information Officer hired a contractor to conduct
an analysis of computer firewall logs, proxy server logs, event viewer logs, email
logs, antivirus logs, and physical device logs from approximately 53 overseas Peace
Corps’ posts. The purpose of the analysis was to assess and identify potential risks,
vulnerabilities, breaches, brute force attacks, hacking attempts, and any other illegal
or unauthorized activity occurring on the servers. Widespread pornography usage
was disclosed during this review. As a follow-up, the same contractor conducted
additional analysis of the data from nine of the 53 posts to identify potential
pornographic browsing activity by staff and/or Volunteers at each location, and to
identify the usernames associated with such activity.

During this reporting period, the OIG coordinated with the Diplomatic Security
Service to analyze computer hard drives seized from several employees who were
suspected of visiting websites which contained sexually explicit material. A post
in the Inter-America and Pacific Region was one of the nine posts selected for
supplemental analysis. The server logs revealed what appeared to be a high level


   26               Semiannual Report to Congress   April 1 - September 30, 2007
of internet traffic to pornographic websites and sex chat rooms. An OIG agent
traveled to the post and seized four hard drives, which were then forwarded to
the Department of State Diplomatic Security Service Computer Investigations
and Forensic Unit (DSS-CIF) for analysis. DSS-CIF confirmed the usage of
pornographic websites, on-line chat rooms, and pornographic images on these
government-issued computers. Two OIG agents followed-up and conducted
interviews of the four employees at the post. Three staff members have had their
contracts terminated. The service of the fourth staff member will be terminated in
December 2007. The OIG continues to investigate the abuse of internet usage.

 OIG Investigations of Federal Employees’ Compensation Act Recipients

At present, the Peace Corps has approximately 1,300 open Federal Employees’
Compensation Act (FECA) claims. The Agency spends approximately $11 million
in FECA claims for former Volunteers and staff who were injured or became ill on
the job. Unlike other Federal entities, per Section 10.730 Worker’s Compensation
Programs, “[a]ny injury sustained by a volunteer or volunteer leader while he or she is
located abroad shall be presumed to have been sustained in the performance of duty,
and any illness contracted during such time shall be presumed to be proximately
caused by the employment.” This also includes any pre-existing condition that may
have been aggravated by Peace Corps service. In addition, the Peace Corps’ five-year
rule and Volunteer special status under the FECA program limit the possibility that
these individuals will return to work.

During the first quarter of fiscal year 2005, the OIG, in coordination with the Peace
Corps Office of Medical Services (OMS) launched a fraud prevention initiative for
claims paid under FECA. The OIG also developed a partnership with the Office of
Inspector General of the U.S. Department of Labor.

Our joint review of FECA claims with OMS includes determination of medical
status as it relates to the claimants ability to return to work. We also review the
medical status with regard to potential costs of the claim to the Agency both in
medical and disability costs. The OIG reviews claims with OMS staff to determine
if further investigation is required to confirm the status of the claimant. Past reviews
and investigations by the OIG have resulted in the identification of claimants
who had not disclosed supplemental income, change of address, and disability
overpayments. The OIG has also taken an active part in investigating physicians with
questionable billing practices.

As a part of our efforts to monitor the FECA recipients, OIG agents continue to
coordinate with the post service nurse of the Agency’s Office of Medical Services
to investigate claimants that are suspected of abusing and/or defrauding the
FECA program. OIG agents regularly travel to FECA district offices to conduct
record reviews. We also perform surveillances, interviews, and other investigative
activities on individuals that have been flagged for unusual patterns of behavior or
circumstances. The following are the highlights of FECA investigatory work during
this reporting period.

     Peace Corps Office of Inspector General                                       27
•   We concluded a two-year investigation which included target letters, surveillance,
    direct meetings, and other investigative activities regarding a FECA recipient
    who was ultimately found to be gainfully employed and teaching overseas.
    The recipient had been receiving benefits since 1992. We coordinated the
    investigation with OMS and the Office of Workers’ Compensation Program
    (OWCP). The investigation resulted in the Department of Labor (DOL)
    terminating the claim. Annual savings to the Agency was $18,996.00 and an
    actuarial savings on the claim was estimated to be $607,872.00.

•   We reviewed the FECA benefits of a former Volunteer who had been injured and
    institutionalized since 2003. DOL is resolving an OIG agent’s finding that the
    attending hospital is in possession of overpayments of approximately $58,000
    dating back to calendar year 2003. Additionally, a review of records by the OIG
    divulged a payment error by DOL which may have resulted in $10,596.00 in
    recipient benefits going to the wrong caregiver.

•   In June 2007, two OIG agents traveled to Districts 9 and 3 to follow-up on
    FECA claimants. The two agents found the residence and place of employment
    of one individual. While interviewing the claimant at her place of employment,
    the agents obtained valuable information. The investigation is still pending.

    Surveillance was conducted on another individual in District 9. The OIG is
    awaiting the results of a mail cover recently placed on the individual’s mail. The
    investigation is still pending.

•   We coordinated with the Department of Labor’s OIG on an investigation of
    claimant that has been deceased for over 18 months. The joint investigation
    revealed that deposited FECA payments were accessed by a family member
    who failed to notify DOL/OWCP that the claimant was deceased. From our
    investigation and initiatives, DOL is negotiating full restitution in the amount
    of $20,000 from the family member who fraudulently utilized the deceased
    claimant’s funds. The information regarding this case was presented to the U.S.
    Attorney’s Office for prosecution, but declined due to the low dollar threshold.

•   Two OIG agents traveled to southern Paraguay to conduct investigative activities
    on a claimant that had been flagged for high compensation benefits and low
    medical benefits. This case is still pending.

•   The OIG flagged two FECA claimants that had high compensation benefits
    and low medical costs. During interviews, OIG agents concluded that these
    individuals do have legitimate FECA claims. Therefore, no further investigative
    action is required at this time. These investigations have been closed.




    28              Semiannual Report to Congress   April 1 - September 30, 2007
                       Violent Crimes Against Volunteers
Overseas posts are required to report immediately to the OIG and RSO any incident
of a specified list of violent crimes against Volunteers. Early notification and response
is critical to a successful investigation and prosecution, which may assist in a victim’s
recovery, serve as a protective deterrent, and remove violent persons from society.

Incidents and crimes to be reported to the OIG and RSO are:
•   Volunteer Death (under any circumstances)
•   Kidnapping
•   Rape and Attempted Rape
•   Major Sexual Assault
•   Robbery
•   Aggravated Assault
•   Major Physical Assault
•   Burglary with Volunteer/Trainee present (or attempted)
•   Death Threat
•   Intimidation/Stalking (also Domestic Violence)
Crimes are reported to the OIG through the telephone number 202-692-2911 or
the crime hotline at violentcrimehotline@peacecorps.gov, from which the Inspector
General and investigative personnel receive notification on a 24/7 basis to assure
prompt assistance and coordination in their investigation. For overseas crimes, the
OIG engages with the Criminal Investigative Liaison Branch (CIL) of the Bureau of
Diplomatic Security to facilitate communications and support to the victim and to
the Peace Corps post. During the reporting period, approximately 203 preliminary
inquiries were opened, which resulted in the initiation of 25 investigations.

We have also established a dedicated law enforcement liaison line (911@peacecorps.
gov) for other federal and foreign law enforcement agencies to access OIG
investigative personnel on a 24/7 basis. This resource for coordination among law
enforcement agencies may be the first of its kind.

We have three agents whose primary responsibility is to oversee the cases in one of
the Agency’s three geographic overseas regions: Africa; Inter-America and Pacific; and
Europe, Mediterranean, and Asia. This allows them to develop closer coordination
with overseas counterparts and a better understanding of the characteristics of each
country and its criminal justice system. A fourth investigator is overseeing the
Agency’s FECA initiatives.




     Peace Corps Office of Inspector General                                        29
             Closed Cases Of Violent Crime Against Volunteers

•   In a South American country, a Volunteer was raped by a host country national.
    The OIG took the Volunteer to a sketch artist when she was medically evacuated
    to Washington, D.C. after the rape. The sketch was provided to local authorities
    and a suspect was apprehended. The OIG assisted the Volunteer with filing a
    formal declaration against the suspect. The OIG also accompanied the Volunteer
    to the town where the incident occurred where she identified the suspect in a
    physical line-up. The case went to trial and the jury unanimously found the
    suspect guilty and he was convicted to 10 years in jail.

•   A female Volunteer serving in a Central Asian country was raped by an
    acquaintance of her counterpart. The Volunteer reported the assault to the
    police, who immediately took the subject into custody. Through coordination
    with the U.S. Embassy and a local investigator, the subject was tried and
    convicted. He was sentenced to eight years in a maximum security prison facility.

•   In a South American country, a former Volunteer who had been sexually
    assaulted in 2003 by a host country national returned for trial accompanied by an
    OIG agent. The former Volunteer testified and the defendant was convicted and
    sentenced to four years incarceration for his crime.

•   In an East African country, a Volunteer was walking down a busy thoroughfare
    when she was grabbed from behind, dragged to the ground, and robbed of her
    handbag. An angry crowd gave chase to the perpetrator. Local police authorities
    arrived and shot and killed the perpetrator. The stolen property was recovered;
    the Volunteer was treated for minor injuries.

•   In a Caribbean country, a Volunteer reported that she had been sexually assaulted
    by another Volunteer six months after the event. The OIG and the embassy’s
    Regional Security Officer interviewed the suspect, the victim, and witnesses. The
    case was referred to the U.S. Attorneys Office in the alleged assailant’s home of
    record. The case was declined due to the victim’s reluctance to prosecute, the
    delay in reporting the incident, and the lack of physical evidence. The suspect
    resigned in lieu of administrative separation.

•   In a South American country, a Volunteer reported that she had been sexually
    assaulted by another Volunteer. The OIG interviewed the alleged victim, suspect
    and other potential witnesses. During an interview with the country director, the
    suspect admitted to being so intoxicated that he could not remember the events
    clearly, but did recall that the victim had said no to his advances. The suspect
    resigned prior to initiation of administrative separation proceedings.

•   An investigation of allegations that a Volunteer raped two other Volunteers while
    serving in an Eastern European country has concluded. This case was presented
    in the District Courts of two states but both venues declined prosecution. The
    OIG concluded investigative and prosecutorial efforts concerning these matters.

    30             Semiannual Report to Congress   April 1 - September 30, 2007
                   Active Investigations of Violent Crime Cases

•   The OIG continued to work with local prosecuting attorneys in an Eastern
    European country to convict three suspects who brutally assaulted and raped a
    female Volunteer. As a result of intergovernmental cooperation, all three suspects
    were found guilty. Two received six-year prison sentences, and one suspect
    received probation. The U.S. Embassy and the OIG are seeking an appeal of the
    sentences because they do not reflect the grave nature of the crime. The results of
    the appeal are pending.

•   In a Caribbean country, we are investigating the assault of a Volunteer with a
    machete. The Volunteer received a serious shoulder injury when he attempted
    to break up a fight. The Volunteer received medial attention and was medically
    separated from the Agency. The assailant was apprehended and is currently
    detained. An OIG agent will accompany the Volunteer to trial in December
    2007.

•   In a Pacific island country, a Volunteer was raped by a host country national.
    Local police identified and arrested a suspect after the Volunteer had left the
    country. An OIG agent traveled to post to coordinate with police and collect
    DNA evidence. Subsequent DNA analysis performed by the FBI laboratory
    confirmed that the subject in custody is the perpetrator of the crime. A trial is
    pending.

•   A Volunteer was raped in a South American country by host country nationals.
    The Volunteer identified one of the suspects as a local police officer through both
    a photo and physical line-up. An OIG agent coordinated investigative activities
    with the Assistant Regional Security Officer, local police, and the prosecutor at
    the post. The OIG forwarded evidence to the FBI lab for DNA analysis, but
    it did not match the suspect. The Volunteer was subsequently able to identify
    a second suspect through a photo line-up and a physical line-up of the second
    suspect is pending.

•   In a South American country, a Volunteer was raped by her host country national
    counterpart. The police apprehended the suspect and placed him in jail. An
    OIG agent coordinated evidence collection with the Peace Corps Medical Officer.
    The OIG is in the process of retaining counsel for the Volunteer.

•   A Volunteer was raped in a South American country by a host country
    national. The Volunteer was medically evacuated to Washington, D.C. The
    OIG coordinated with the Fairfax County police department and via Volunteer
    description, an artist was able to compile a sketch of the suspect. The sketch was
    forwarded to the local police to assist with their search for the suspect. The OIG
    is attempting to obtain counsel for the assaulted Volunteer.

•   In a West African country, a Volunteer was the victim of an attempted sexual
    assault by a co-worker. The subject has been identified and will be questioned by
    local police authorities.
     Peace Corps Office of Inspector General                                       31
•   In an East African country, two Volunteers were accosted by an armed assailant.
    The Volunteers were robbed of cash, cell phone and other belongings. The
    assailant was apprehended, and the property was recovered. This case is awaiting
    trial.

•   In a southern Africa country, an escaped felon attempted to sexually assault a
    Volunteer. The Volunteer victim’s screams attracted villagers who apprehended
    the assailant for police authorities. The case is awaiting trial.

•   As was previously reported, a Volunteer in a West African country was sexually
    assaulted and the assailant fled. Local police learned the identity of the attacker
    from villagers, and he was arrested and taken into custody. Working together
    with the post and local police authorities, an OIG agent forwarded DNA
    evidence to the FBI lab for analysis. An OIG agent went to post and testified
    in court about the chain of custody and the efficacy of DNA analysis. The
    perpetrator was convicted and sentenced to serve six years in prison.

•   As was previously reported, the subject of a sexual assault case against a Volunteer
    in a central African country remains in custody awaiting trial. The Volunteer,
    who has subsequently left service, was accompanied back to the country by
    Agency staff for the preliminary hearing. A trial date is pending.

•   As was previously reported, in a northern African country, local villagers thwarted
    an attempted rape of a Volunteer. The assailant was apprehended, incarcerated,
    and is awaiting trial.

•   As was previously reported, a Volunteer in a northern African country suffered a
    fractured arm while being raped by two men. The suspects were apprehended,
    but one escaped after being in local police custody. He was subsequently
    recaptured. The Volunteer, who has left service, has expressed interest in
    returning to the post when a trial is convened.

•   As was previously reported, a Volunteer was stabbed multiple times in an Eastern
    Asian country. Through immediate intervention and emergency surgery, the
    Volunteer survived. Host country police continue their investigation and one
    subject has been apprehended and remains in custody while a second subject is
    still at large. During this reporting period, the OIG continued to coordinate
    with the U.S. Embassy to ensure that the jailed subject is tried for the attack
    while the search continues for his accomplices.

•   As was previously reported, a Volunteer homicide in a central African country
    that occurred in 1998 remains an open investigation with the OIG, the RSO,
    and the FBI. The Peace Corps program in the country has been closed, but the
    OIG continues to coordinate with both law enforcement agencies and the local
    authorities to seek justice. We met with the FBI during the reporting period to
    strategize on investigative efforts, including ongoing discussions with the local
    government.

    32              Semiannual Report to Congress   April 1 - September 30, 2007
•   As was previously reported, a Volunteer in a sub-Saharan African country suffered
    a serious physical injury from a knife during a home invasion. The suspect
    was apprehended and is presently incarcerated. The Volunteer was medically
    separated from the Agency and has recovered. The Volunteer provided a written
    deposition to be submitted as evidence, which may preclude her appearance at an
    upcoming trial.

•   As was previously reported, in a West African country, two Volunteers were
    robbed by a knife-wielding assailant on a motorcycle. Neither of the Volunteers
    sustained injuries. Local authorities arrested a subject and a trial is pending.


     Title 18 Criminal and Other Investigations Conducted
                         Investigations Leading to Disposition

•   During the previous reporting period, the OIG opened an investigation relating
    to a Volunteer serving in a Middle Eastern country engaging in public political
    statements in violation of Agency policy. A variety of Peace Corps Manual
    sections and Handbook procedures require Peace Corps Volunteers to maintain
    an apolitical posture in their country of service and refrain from becoming
    involved in the political affairs of their host country. Among the sentiments
    expressed in the Volunteer’s internet-based journal (“blog”) were political
    opinions about the country in which he was serving, favorable comments about
    groups classified by Executive Order as terrorist organizations, and comments
    concerning the foreign policy of a neighboring country in the region. The
    Volunteer’s blog was publicly available and not password protected.

    During this reporting period, OIG developed additional evidence that the
    Volunteer was provided with training regarding Agency prohibitions on
    political statements, including the requirement of clearing any political blog
    with the country director. The Volunteer acknowledged that his statements
    could pose a security risk to him in his country of service. The Volunteer
    further conceded that the portion of his blog in which he was critical of local
    governments could have become known to the host-country Government and
    undermine Peace Corps’ credibility in his host country. The Volunteer also
    acknowledged associating with members of his host country’s intelligence service.
    When representatives of the host government became aware of the Volunteer’s
    statements and associations, they expressed concern to the U.S. Embassy about
    the safety of the Volunteer and the U.S. Ambassador recommended that the
    Volunteer be removed from the country within 24 hours.

    The host country agency also conducted an investigation of the Volunteer’s 	
    activity and found further evidence that he had discussed political issues with
    host country nationals.



     Peace Corps Office of Inspector General                                      33
    The OIG also found that the country director failed in her responsibilities to 		
    monitor and oversee the Volunteer’s blog entries and did not object to certain 	
    entries that were political in nature and violative of Agency’s rules and guidelines.

	   During this reporting period, the Volunteer resigned in lieu of administrative 		
	   separation. The country director, who had been slated to work in the Peace Corps 		
	   Director’s Office, retired in lieu of this assignment.

•   As was previously reported, we received several complaints from U.S. citizens
    who had wired funds to pay for dogs to be purportedly shipped from West
    Africa. The dogs allegedly belonged to Peace Corps staff/Volunteers residing
    overseas. The complainants contacted the OIG when they became suspicious
    of requests to send additional funds to complete logistical transactions for dogs.
    The OIG investigated the allegations and discovered that a widespread internet
    dog adoption scheme was being perpetrated by local citizens operating in West
    Africa. The OIG collaborated with the West African country’s embassy in
    Washington D.C., Interpol, the RSO in country, and local police authorities to
    gather information and investigate this matter. The investigation resulted in the
    arrest and incarceration of four individuals. The OIG also recovered $2,300 in
    U.S. currency which was returned to the victims of this cyber crime.

•   The OIG investigated a complaint of fraud and cyber crime. Several individuals
    had established a lending organization on the internet that included the Peace
    Corps logo and emblem in violation of 22 USC §1030, 18 USC § 712, and 22
    USC § 2518. The matter was referred to the Office of the General Counsel and
    remediation actions have been initiated.

•   The OIG investigated an allegation that an employee received medical treatment
    in the United States for cancer and returned to his post in an Eastern Africa
    country without properly notifying the Department of State’s Medical Clearance
    Section. The investigation verified this and disclosed other irregularities
    concerning the employee’s time and attendance practices and his supervision.

•   In a southern African country, it was reported to us that a personal services
    contractor driver admitted to unauthorized use of fuel advances to purchase
    personal items. Additionally, the driver made false claims and provided false
    documents in furtherance of his thefts. The post is seeking reimbursement of
    funds. The driver’s employment with the Agency has been terminated.

•   In a southern Africa country, armed bandits car jacked a Peace Corps Land
    Cruiser and robbed the occupants of the vehicle. No Peace Corps staff or
    Volunteers were injured. The vehicle was recovered intact by local police
    authorities.

                                Active Investigations

•   In July 2007, the cashier, two drivers, and a guard were robbed at gunpoint of
    approximately $44,600 government funds while waiting for a traffic light to
    34              Semiannual Report to Congress   April 1 - September 30, 2007
    change in a South American country. Three men on a motorcycle shot into two
    government vehicles being used to transport the local staff with the cash. Two
    OIG agents went to post to investigate the circumstances of the armed robbery.
    The agents conducted interviews with nine employees; met with police, embassy,
    and bank officials; and reviewed pertinent documents. The investigation revealed
    that three employees had conspired to divert Volunteer living allowance funds
    into the imprest fund to cover cash shortages without authorization or prior
    consultation with management. The plan evolved over the course of a week, and
    included multiple contacts and phone calls with the local bank supervisors, who
    were pressured into converting the Volunteer living allowance funds into a check
    in the cashier’s name, which she was then directed to cash at another branch
    of the same bank. The cashier, administrative officer, and safety and security
    coordinator arranged for two identical government vehicles to travel in a convoy
    to and from the bank to conduct the illegal transaction. A uniformed, perimeter
    security guard accompanied the two drivers and cashier, but was placed in the
    vehicle that did not contain the money. The security guard was injured and
    lost his duty weapon and radio in the incident, and both he and a driver were
    nearly killed. While no evidence of direct employee participation in the robbery
    was uncovered, the investigation indicated a Title 31 U.S.C. §1301 purpose
    statute violation under the Anti-Deficiency Act. The investigation also disclosed
    numerous violations committed by the Safety and Security Coordinator related
    to the local guard force contract, and the mishandling and misappropriation of
    U.S. government funds.

•   An ethics/criminal conflict of interest case was brought to the attention of the
    OIG from an anonymous complainant who alleged that the hiring process,
    including the particulars in the vacancy announcement, had been manipulated
    so that a specific employee would be selected for an internal position. The
    OIG initiated an investigation of these allegations and interviewed employees
    involved in the referenced job vacancy announcement. The OIG reviewed
    pertinent documents, electronic mail, and discussed the allegations with the
    Agency’s Designated Agency Ethics Official. This investigation disclosed that the
    subject violated the Standards of Ethical Conduct as she had direct participation
    in the development of the subject vacancy announcement, including editing
    and modifying the job criteria for which she applied. Due to the results of
    the investigation, the subject’s job offer was revoked and the position was re-
    advertised. The Agency is also considering disciplinary action against the
    employee who violated the Standards of Ethical Conduct.

•   In a central African country, post staff reported that the cashier failed to report
    for work and funds were missing. The OIG dispatched a criminal investigator
    and an auditor to the post to determine the extent of the loss and investigate
    the circumstances of the crime. It was determined the cashier fled with
    approximately $43,000. The OIG has issued a warrant for the arrest of the
    former employee.


      Peace Corps Office of Inspector General                                        35
•   An OIG agent traveled to a Pacific island country in response to PROTECT
    Act violation allegations involving multiple male Volunteers. The investigation
    revealed that a small group of male Volunteers had been engaging in improper
    and inappropriate behavior on government property, including sexual activity
    with host country national females. Prior to the end of their original close of
    service date, all six Volunteers resigned in lieu of administrative separation.

•   In April 2007, the OIG received an allegation that a Peace Corps employee had
    been previously arrested in a criminal case in Africa, but had fled the jurisdiction
    to avoid trial. An OIG agent contacted State Department counterparts and
    confirmed that the subject had been arrested and formal charges had been filed
    against the subject while living and working in the host country for a non-
    governmental organization. However, the subject got out of jail and fled the
    jurisdiction prior to trial. The charges, if proven in a court of law, were serious
    enough to impact the subject’s suitability for employment with the Peace Corps.
    The subject had also failed to disclose the arrest or prior overseas employment on
    their employment application and security questionnaire. The OIG referred this
    matter to the Office of Safety and Security for immediate action.

•   The OIG is awaiting the trial of three subjects, including one former Peace Corps
    employee, who are being detained for the theft of two Peace Corps Land Cruisers
    in a southern African country. One of the two vehicles was later recovered in a
    neighboring country.

•   On July 26, 2007, the OIG received an anonymous complaint concerning the
    travel of a senior Peace Corps offical. The complainant commented that the
    senior official routed his overseas trips through another state for personal reasons,
    including to accumulate frequent flier miles. The complainant also questioned
    whether the senior official could begin or end his official travel in a site other
    than Washington, D.C., even though his official duty station is Washington D.C.

•   As was previously reported, the OIG and a Regional Security Officer participated
    in a joint investigation of a host country national employee in a southern African
    country who was implicated and subsequently arrested by local police authorities
    for the theft of more than $9,000 of Peace Corps funds. The case is still in the
    trial stage.

•   As was previously reported, in an East African country, the OIG continues to
    work with the Peace Corps Africa Region, U.S. Embassy, and a locally retained
    lawyer to prosecute a host country national for the theft of internet services
    from the local Peace Corps office. Peace Corps is also seeking restitution of
    approximately $6,000 from the subject, who is a former Peace Corps employee.
    The subject is suspected of distributing Peace Corps’ computer network password
    information and allowing unauthorized persons to access internet services at the
    agency’s expense.



    36              Semiannual Report to Congress   April 1 - September 30, 2007
TABLE 1: List of Reports : Audits, Evaluations, and Inspections




 Peace Corps/Cameroon                                       Audit
 Peace Corps/Jordan                                         Audit
 Peace Corps/Niger                                          Audit
 Peace Corps/Senegal                                        Audit
 Peace Corps/Thailand                                       Audit
 Peace Corps/Zambia                                         Audit
 Peace Corps/Honduras                             Follow-up Audit
 Peace Corps/Panama                               Follow-up Audit
 Safeguarding of Social security Number           Follow-up Audit
 Peace Corps/Azerbaijan                        Program Evaluation
 Peace Corps/Eastern Caribbean                 Program Evaluation
 Peace Corps/Guinea                            Program Evaluation




     Peace Corps Office of Inspector General                 37
          TABLE 2: Reports Issued with Questioned Costs or
                      Funds Put to Better Use


                                                                          Value                   Note

Audit of Peace Corps/Niger	                                         $	    1,002.04        	         1

Audit of Peace Corps/Jordan              		 $ 	 10,000.00                                         		 2

Audit of Peace Corps/Ecuador                  		 $ 	 109,807.94                               	 	3

Program Evaluation of
Peace Corps/Eastern Caribbean 		 $	                                      40,665.00            	     4


Total of Reports Issued with Costs   	
Questioned or Funds Put to Better Use			$	 161,474.98


Note:
1.   Unaccounted for collections.
2.   Unauthorized imprest fund holdings.
3.   Sale of excess vehicle and obsolete equipment.
4.   Bills of collections not completed for unexpended grant funds. Grant funds expended from improper
     source.




     38                Semiannual Report to Congress      April 1 - September 30, 2007
                 TABLE 3: Status of Reports Issued by
                    OIG with Costs Questioned




                                               Number of    Value
                                             		Reports

A. Reports issued prior to this period
	     For which no management decision had been	
    	 made on any issue				0

   	 For which some decisions had been made
   	 on some issues		                            0

B. Reports issued during the period	            2    	     $22,706.04

Total of Categories A and B				2                     	     $22,706.04

C. For which final management decisions were made	
   during this period				2                           	     $22,706.04

D. For which no management decisions were made
   during the period			 	0

E. For which management decisions were made
   on some issues during the period				0	

TOTAL OF CATEGORIES C, D, and E				2                 	     $22,706.04




  Peace Corps Office of Inspector General                  39
             TABLE 4: Status of Reports Issued by
              OIG with Funds Put to Better Use



                                                       	
                                                                  Number of      Value
                                                                  Reports

A. Reports issued prior to this period	
      For which no management decision had been
       made on any issue	                                                1    $109,807.94

       For which some decisions had been made
       on some issues		0                                                            0

B. Reports issued during the period	                                     2 		 $28,961.00

Total of Categories A and B	                                             3		$138,354.94

C. For which final management decisions were made
   during this period 	                                                  3	   	$138,354.94

D. For which no management decisions were made
   during the period	                                                    0          0

E. For which management decisions were made
   on some issues during the period	                                     0          0

TOTAL OF CATEGORIES C, D, and E 	                                        3		$138,354.94




40             Semiannual Report to Congress   April 1 - September 30, 2007
        TABLE 5: Reports with Recommendations on which Corrective
                      Action has not been Completed


                            Recommendations open 60 days or more
Report                                         				Date Issued Number of Open
                                              											      Recommendations

PC/Honduras: Follow-up Audit                         	         						      6	/21/2007     							 1
PC/Panama: Audit and Evaluation                	             	            6	 /22/2007       		 4
PC/Eastern Caribbean                                     	      		        6/25/2007    									 28
Follow-up Audit of the Safeguarding of Social Security Numbers     		      6/25/2007     								 2
PC/Azerbaijan: Program Evaluation				 	                                    7/26/2007 									 2
PC/Niger: Audit                                                       	     7/27/2007    								 20

                           Recommendations open 120 days or more
Report                                                     	         Date Issued 	 Number of Open
                                                                                   Recommendations

None
                           Recommendations open 180 days or more*
Report                                            	                  Date Issued 	 Number of Open
                                                               	                   	Recommendations
Gap Analysis 				 10/15/2004                                                                  	 	1
FY 04 Agency Financial Statements: Audit                    			 11/15/2004                 								2
Audit of the Safeguarding of Social Security Numbers      					 3/4/2004                       		 2
PC/Uganda: Audit                                         					 9/21/2005                       		 1
FY 05 Agency Financial Statements: Audit                  					 11/15/2005                    	 	3
PC/Namibia: Audit                                        		 12/9/2005                          		 1
FISMA                                                    					 5/22/2006                       		 8
Travel Policies and Procedures: Audit                    					 6/27/2006                    				 9
Mid-Atlantic Recruiting Office                           		 9/29/2006                          		 2
PC/South Africa: Audit and Evaluation                  		 10/23/2006                         		 2
PC/Cameroon: Evaluation                                 				 10/23/2006                       			 15
PC/Uganda: Follow-up Audit                              				 	12/14/2006                       		 4
PC/Ecuador: Audit and Evaluation                     			         1/25/2007                     		 3
PC/China: Audit                                           				 3/30/2007                       		 1




                 Peace Corps Office of Inspector General                                        41
                               TABLE 6: Summary of Investigative Activity



      Cases                                                       NUMBER
      Cases opened as of 4/1/2007                                   65
      Cases opened during 4/1/2007 - 9/30/2007                 			  18
      Cases closed that were previously opened                 			  17
      Cases opened and closed during 4/1/2007 - 9/30/2007      			   0
      Total open cases as of 9/30/2007                         			  66
      Referrals for Department of Justice Prosecution          		   11
      Referrals for Agency Administration Action               				 7
      Referrals to Other Agencies                                    1


      Domestic Court Actions                                      NUMBER
      Trial(s) Pending                                                 0
      Convictions                                                      0
      Acquittals                                                       0
      Judgments                                                        0
      Fines/Restitutions                                               0


Overseas Court Actions                                    		      NUMBER                     	   VALUE
      Trial(s) Pending                                                 14
      Convictions                                                       5
      Acquittals                                                        0
      Judgments                                                         0
      Fines/Restitutions                                                2                          $2,300

Monetary Results                                          NUMBER                   VALUE
      Annual Savings                                                   1                          $58,538
      Recoveries/Restitution                                           0
      Cost Avoidance                                                   1                         $607,872

ADMINIstrative Actions                                    NUMBER
      Employees (Resignations and Terminations)                        7
      Other Employee Actions                                           6
      Other Persons/Businesses                                         9




               42                 Semiannual Report to Congress   April 1 - September 30, 2007
    TABLE 7: Summary of Hotline and Other Complaints




Complaints Received                                           22
Complaints Closed                                             20
Awaiting OIG Action                                            2
Resulted in Investigations                                     4
Resulted in Audits                                             0
Resulted in Evaluations                                        0
Referred to Agency Management                                  0
Referred to Other Agency                                       0
No Action Needed*                                             17

*
    Nine of these complaints were regarding one issue.




     Peace Corps Office of Inspector General             43
   TABLE 8: References to Reporting Requirements of
              the Inspector General Act


The Inspector General Act of 1978, as amended, specifies reporting requirements for
Semiannual Reports to Congress. The requirements are listed below and indexed to the
applicable page.

Act Reference Reporting Requirements                                                 Page

Section 4(a)(2)    Review of legislation and regulations                            None
Section 5(a)(1)    Significant problems, abuses, and deficiencies                   6 – 22
Section 5(a)(2)    Significant recommendations for corrective actions               6 – 22
Section 5(a)(3)    Prior significant recommendations on which corrective action
                   has not been completed                                             41
Section 5(a)(4)    Matters referred to prosecuting authorities                      34 – 36
Section 5(a)(5)    Summary of instances where information was refused                None
Section 5(a)(6)    List of audit reports, including evaluations, inspections, and
                   reviews                                                            37
Section 5(a)(7)    Summary of significant reports                                   13 – 22
Section 5(a)(8)    Statistical table - questioned costs                               39
Section 5(a)(9)    Statistical table - funds put to better use                        40
Section 5(a)(10)   Summary of previous audit reports without management
                   decisions                                                        None
Section 5(a)(11)   Significant revised management decisions                         None
Section 5(a)(12)   Significant management decisions with which the Inspector
                   General disagrees                                                None
Section 5(a)(13)   Information under Federal Financial Management
                   Improvement Act of 1996                                          None




  44                Semiannual Report to Congress   April 1 - September 30, 2007
Help promote the integrity, efficiency, and effectiveness of the Peace Corps.
Anyone knowing of wasteful practices, abuse, mismanagement, fraud, or
unlawful activity involving Peace Corps program or personnel should call or
write the Office of Inspector General.

Call:
Main Office                       (202) 692-2900
Hotline                           (800) 233-5874
Violent Crime Notifications       (202) 692-2911

Write:
Peace Corps
Attn: Inspector General
1111 - 20th St., N.W.
Washington, DC 20526

Or

Peace Corps
Attn: Inspector General
P.O. Box 57129
Washington, DC 20037-7129

Email:
Hotline:                               OIG@peacecorps.gov
Violent Crime Notifications:           violentcrimehotline@peacecorps.gov




     Information received is held in confidence to the maximum feasible extent.
Peace Corps
Office of Inspector General
Paul D. Coverdell Peace Corps Headquarters
1111 - 20th St., NW
Washington, DC 20526
